•At. N.

No.

In the
Supreme Court of the United States

ANTWAN LAMAR HUTCHINSON
Petitioner
v.

UNITED STATES OF AMERICA
Respondent

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
PROOF OF SERVICE
I, Matthew C. Gulotta, do swear and declare on this date, the 17th of March, 2021, as
required by Supreme Court Rule 29, that I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS; MOTION TO SEAL; and, PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above referenced
documents in the United States Mail, properly addressed to each of them with first-class postage
prepaid.

1

i

’--fe' ' *
X

The names and addresses of those served are as follows:
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Avenue, N. W.
Washington, DC 20530-0001
(202)514-2203
SupremeCtBriefs@USDOJ.gov

Ms. Kimberly Robinson
Office of the U.S. Attorney
303 Marconi Boulevard, Ste. 200
Columbus, OH 43215
(614) 469-5715
kim.robinson@usdoi. gov

I declare under penalty of perjury under the laws of the United States of America that the
foregoing is true and correct. Executed on March 17, 2021.

Respectfully Submitted,

MATTHEW C. GULOTTA
The Gulotta Firm, PLLC
202 Adams Avenue
Memphis, TN 38103
(901)213-6648
matt@gulottalaw.net
CJA Appointed Counsel
ofRecordfor Petitioner

2

